HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Tennessee," (A-04-07-07026)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the
Medicaid Drug Rebate Program in Tennessee," (A-04-07-07026)
May 1, 2008
Complete
Text of Report is available in PDF format (188 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Tennessees Medicaid drug rebate
program, we found that as of June 30, 2006, the State had implemented the
recommendations from our prior audit that related to verifying all amounts
reported on the Form CMS 64.9R to ensure that those amounts tie directly back to
the amounts recorded in the accounting records.  Manufacturers may make their
outpatient drugs eligible for Federal Medicaid funding by entering into a rebate
agreement with the Centers for Medicare and Medicaid Services and paying
quarterly rebates to the States.  We also found that the State had established
controls over collecting rebates on single-source drugs administered by
physicians.  Therefore, we did not offer any recommendations.